Via Electronic Filing

December 9, 2020

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 20-374, Continental Resources, Inc. v. Zachary Buckles, Deceased, By and
Through His Personal Representative, Nicole R. Buckles, et al.

Dear Mr. Harris:
I write to request an extension of the time to file a response to the petition for certiorari
in this case. The response is currently due on December 16, 2020. For the following reasons, I
request a 30-day extension to and including January 15, 2020.
I will have principal responsibility for preparing the brief in opposition to the petition.
Because I was only recently retained in this case, my colleagues and I will require additional
time to prepare an adequate response to the petition. Furthermore, we have several upcoming
deadlines and obligations that, in addition to the upcoming holiday season, will prevent us from
devoting adequate time to the response absent an extension. These include an opening brief due
in the Ninth Circuit on December 14 (in Moser v. HII); a brief in opposition due in this Court
on December 14 (in Citizens for Responsibility and Ethics in Washington v. Trump); a brief
in opposition due in this Court on December 16 (in IQVIA v. Mussat); a petition for certiorari
due in this Court on December 24 (in Allen v. Wells Fargo); a reply brief due in the Ninth Circuit
on December 24 (in Sponer v. Wells Fargo); an opening brief due in the Federal Circuit on
January 4 (in In re: Steve Elster); a reply brief due in the Tenth Circuit on January 6 (in Hood
v. American Autocare); and a petition for certiorari due in this Court on January 8 (in Ellis v.
Liberty Life Assurance Co.). A 30-day extension will allow us to balance these other
responsibilities with our obligations in this case.
Thank you for your attention to this matter.
Sincerely,

cc: Counsel of Record
Gupta Wessler PLLC
1900 L Street, NW, Suite 312, Washington, DC 20036
P 202 888 1741 F 202 888 7792
guptawessler.com

Deepak Gupta

